December 17, 2012

MEMORANDUM FOR:           DAVID E. WILLIAMS, JR.
                          VICE PRESIDENT, NETWORK OPERATIONS

                          MAURA ROBINSON
                          VICE PRESIDENT, CONSUMER AND INDUSTRY
                          AFFAIRS




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Management Alert – Customer Service Feedback
                          (Report Number NO-MA-13-001)

This management alert presents Customer Service Feedback which surfaced during our
review of the U.S. Postal Service’s preparation for the fiscal year 2013 fall mailing
season (Project Number 12XG032NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Deborah Giannoni-Jackson
    Area Vice Presidents
    Corporate Audit and Response Management
Customer Service Feedback                                                                                  NO-MA-13-001



Introduction

While collecting information in preparation for the fiscal year (FY) 2013 fall mailing
season for a subsequent post-fall mailing season audit, we came across customer
feedback which we wanted to immediately bring to your attention for action.

Generally, the U.S. Postal Service’s performance is impacted in the fall due to higher
than normal Standard Mail ® volume in response to increases in advertising for back to
school time and the winter holidays. In the past, Postal Service mailers have expressed
concern with the Postal Service’s performance during the fall mailing season with
regard to timely processing of mail and the availability of mail transportation equipment,1
which we addressed in subsequent reviews.

This year some mailers raised concerns regarding mail delays. The Postal Service
interacts with its largest mailers through the Business Service Network. There are 298
Business Service Network representatives and managers spread across seven areas
and 67 districts who act as intermediaries between approximately 22,000 mailers and
various Postal Service operations. During FY 2012, Business Service Network
representatives processed 4,762 complaints with service issues of “late” or “delayed”
mail.

Conclusion

Although preparing for and reporting on a good start to this fall’s mailing season, some
large business mailers raised concerns about mail operations’ feedback system during
this fall’s mailing season. This alert addresses those concerns. While the Postal Service
has a tracking and feedback system, it is not effective or robust enough for mailer
needs. Specifically, we found the system is not designed to provide timely,
well-informed feedback to customers, nor is it set up to provide maximum mail visibility
to customers. These conditions occurred because (1) some Business Service Network
representatives have limited knowledge and access to mail processing operations and
(2) the feedback process was cumbersome. Timely, responsive feedback to mailers and
customers is critical to preserving revenue for the Postal Service.

Mailer and Business Service Network Representatives Feedback

The Postal Service has a system which tracks complaints and provides feedback on
mailers’ specific concerns. The system tracks all complaints and the Business Service
Network representatives enter the information into the Customer First! System. It also
records the details of the complaint, such as mailing location, the date of the complaint,
and how and when the complaint was resolved; however, it is not adequate for mailers’
needs.


1
    Mail transportation equipment includes Postal Service-provided pallets, letter trays, and flat tubs.
                                                            1
Customer Service Feedback                                                                          NO-MA-13-001



Specifically:

   Timeliness of Customer Feedback. The system requires Business Service Network
    representatives to provide a response to customers within 1 to 3 business days and
    these timeframes are not being consistently met. From October 2011 through
    September 2012 (the end of FY 2012) the average time to resolve a customer
    complaint was 5 days.2 While average resolution time has decreased to 3.4 days3
    during this fall’s mailing season, it still exceeds the required resolution time.
    Obtaining an answer to resolve customer requests is difficult as it can require input
    from a plant, delivery unit, or support function employee as well as from
    conversations with mailers. Often delivery unit, plant, and/or support function
    employees do not respond in a timely manner. Moreover, we found the
    representatives were not always well-versed in answering mailer inquiries as they
    are not mail processing experts and often receive second-hand information. When
    the representatives convey the information they receive from the mail processing
    employees to the mailers, this often results in additional questions from the mailers,
    which then have to be taken back to mail processing experts for resolution. Thus,
    the process to resolve a single request can include multiple time-consuming steps.

   Access to Mail Processing Information. The Postal Service’s Intelligent Mail®
    barcode (IMb) system is currently set up to identify where customer mail is located in
    the mail processing network. In addition, the Web Mail Condition Reporting System
    provides a daily snapshot of operations at processing centers nationally, including
    mail volume on-hand, delayed mail volume, and the age of the mail detailed by mail
    class. However, the representatives do not have access to IMb or Web Mail
    Condition Reporting System data. As a result, this process does not give mailers the
    visibility over mail that they need to diagnose a delay problem and get their mail
    moving again.

These conditions occurred because many representatives only have limited access to
and knowledge of mail processing operational information. We discussed these issues
with some mailers and they indicated that:

   They wanted representatives to be able to provide immediate feedback on mail
    delays and greater visibility in tracking mail.

   Some representatives cannot answer mail processing questions as they are, in
    effect, acting as intermediaries and trying to explain issues they may not fully
    understand to someone further down the mail processing chain.

In discussions with the representatives, they reiterated similar concerns expressed by
mailers. They further indicated that they do not always have the skills and tools required

2
  We obtained information on the average number of days to resolve a customer complaint from the Postal Service’s
Customer First! System.
3
  The average of 3.4 days was as of November 6, 2012. The fall mailing season extends through the end of
November.

                                                        2
Customer Service Feedback                                                     NO-MA-13-001



to track customers’ mail. Furthermore, their reliance on Operations often proves
frustrating, as Operations does not always respond to their requests in a timely fashion.
Timely, responsive feedback to mailers and customers is critical in preserving revenue
for the Postal Service.

Recommendations

We recommend the vice president, Network Operations, coordinate with the
vice president, Consumer and Industry Affairs, to:

1. Provide Business Service Network representatives training and access to
   Postal Service data systems such as Intelligent Mail barcode and Web Mail
   Condition Reporting Systems to enable them to better serve their customers.

We recommend the vice president, Network Operations, coordinate with area vice
presidents to:

2. Ensure that all field personnel respond to customer service requests from Business
   Service Network representatives within 24 hours.

Management’s Comments

Management agreed with the recommendations in the report. Specifically, management
stated that, in response to recommendation 1, effective March 2013, Processing
Operations management will provide training to Business Service Network
representatives on the Service Performance Diagnostic tool. This tool encompasses
IMb and other diagnostics that will help the Business Service Network representatives
pinpoint where mail delays exist. In response to recommendation 2, effective
March 2013, Consumer and Industry Affairs will provide continuous feedback to field
operations on customer service requests that have not been abated within 24 hours.

See Appendix A for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            3
Customer Service Feedback                                       NO-MA-13-001



                            Appendix A: Management’s Comments




                                            4
Customer Service Feedback       NO-MA-13-001




                            5
